Supreme Court, U.S.
FILED

WAIVER

AUG 3 1 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

19-262

Xiao-Ying Yu

v.

Robert R. Neall, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
[ij Please enter my appearance as Counsel of Record for all respondents.
111 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Ei I am a member of the Bar of the Supreme Court of the United States.
El I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member..
Signature
I

Date.
(Type or print) Name

James N. Lewis
Li Mr.

Firm

[I] Ms.

D Mrs.

[1] Miss

Maryland Office of the Attorney General

Address

300 West Preston Street, Suite 302

City & State
Phone

Baltimore, Maryland

410.767.5162

Zip
Email

21201

Jamesiewisl @maryland.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Ms. Xiao-Ying Yu

RECEIVED
SEP 1 1 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

